No. 19-

IN THE

'upreme Court of tije Zilititeb eptateo
FORD MOTOR COMPANY,
Petitioner,
v.
MONTANA EIGHTH JUDICIAL DISTRICT COURT, et al.,
Respondents.

On Petition for a Writ of Certiorari
to the Supreme Court of Montana

PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
7,907 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on September 18, 2019.

Colin Casey Hoga
Wilson-Epes Printing Co., Inc.

